No. 21-144
SEATTLE'S UNION GOSPEL MISSION,

Petitioner,
v.

MATTHEWS. WOODS,

Respondent.

CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Anthony G. Lantagne, hereby certify that the above referenced BRIEF OF AMICI
CURIAE THE STATE OF MONTANA, MONTANA ATTORNEY GENERAL AUSTIN
KNUDSEN, AND OTHER SENIOR MONTANA STATE ATTORNEYS IN SUPPORT
OF PETITIONER, as indicated by the word count feature of MS Word, and including
footnotes but excluding those parts enumerated for exclusion under the rules, contains
5,992 words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 2nd day of September, 2021.

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

